_ ok
Anthony Leon Latimer alkjaGeraid Smith oy THE SUPREME COURT OF

: oner.
Ce) ® tHe UNTTED STATES
Ve *
son Sons, POckET NO.3 29-5349

t Ft kk ke

CERTIFICATE OF SERVICE

TI HEREBY CERTLFY that on the 18 day of December, 202048 PETIT-
TON FOR RECONSIDERATION FoR REHEARING, and AFFIDAVIT OF TRUTH
Was Sent U.S. Postage Prepaid First Class to the SUPREME COURT FOR
UNITED STATES, OFFICE OF THE CLERK, Washington, DO. 20543-0909,
Petitioner respectful] 4 Vequest the CLERK, and ask can You Serve all

Parties in this mater,
Ail Rights Reserved
Without Prejudice
EC 1408
Anthony Leon Latimer, alkja
Gerrald Smith "1456719 Jugé7q)
2020 Toulson Road (p.R.c.£)
Jessup, MD. 20794

d

@ of 3)
